                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 T H S TREET, R OOM 0429
                                                                            K ANSAS C ITY , MO 64106
March 12, 2012

Report Number: A-07-11-00366

Ms. Suzanne M. Gannon
Executive Director and Chief Financial Officer
MedUS Services, LLC
HealthNow New York, Inc.
257 West Genesee Street
Buffalo, NY 14202

Dear Ms. Gannon:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Contractor’s Pension Segmentation
Requirements for the Durable Medical Equipment Regional Carrier Segment at HealthNow New
York, Inc., a Terminated Medicare Contractor, for the Period January 1, 2002, to
January 1, 2007. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-11-00366
in all correspondence.

                                             Sincerely,


                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services
Enclosure
Page 2 – Ms. Suzanne M. Gannon

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Director and Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL

REVIEW OF MEDICARE CONTRACTOR’S
     PENSION SEGMENTATION
 REQUIREMENTS FOR THE DURABLE
  MEDICAL EQUIPMENT REGIONAL
 CARRIER SEGMENT AT HEALTHNOW
  NEW YORK, INC., A TERMINATED
  MEDICARE CONTRACTOR, FOR THE
   PERIOD JANUARY 1, 2002, TO
         JANUARY 1, 2007



                        Daniel R. Levinson
                         Inspector General

                          February 2012
                          A-07-11-00366
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                           Notices

     THIS REPORT IS AVAILABLE TO THE PUBLIC

                      at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as questionable,
 a recommendation for the disallowance of costs incurred or claimed,
 and any other conclusions and recommendations in this report
 represent the findings and opinions of OAS. Authorized officials of the
 HHS operating divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

During our audit period (January 1, 2002, to January 1, 2007), HealthNow New York, Inc.
(HealthNow), administered Medicare Part B and Durable Medical Equipment Regional Carrier
(DMERC) operations under cost reimbursement contracts with the Centers for Medicare &
Medicaid Services (CMS). The DMERC contractual relationship was terminated on
June 30, 2006. The effective closing date for the DMERC Medicare segment was
January 1, 2007. This report will address only the DMERC Medicare segment assets for the
period of January 1, 2002, through January 1, 2007.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.
Furthermore, in situations such as contract terminations, the Medicare contracts require
contractors to identify excess Medicare pension assets/liabilities, in accordance with CAS 413.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts to ensure conformance with CAS 413. The Medicare contracts define a
segment and specify the methodology for the identification and initial allocation of pension
assets to the segment. Additionally, the contracts require Medicare segment assets to be updated
for each year after the initial allocation in accordance with CAS 412 and 413.

Upon the termination of its DMERC Medicare contracts, HealthNow identified Medicare’s share
of the DMERC Medicare segment excess pension liabilities to be $203,556.

OBJECTIVE

Our objective was to determine whether HealthNow complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •   identifying the DMERC Medicare segment’s initial asset base,

   •   updating the DMERC Medicare segment’s pension assets from January 1, 2002, to
       January 1, 2007, and

   •   determining Medicare’s share of the DMERC Medicare segment excess pension
       assets/liabilities as a result of the termination of the DMERC Medicare contracts.




                                                 i
SUMMARY OF FINDINGS

HealthNow complied with the Medicare contracts’ pension segmentation requirements in
identifying the DMERC Medicare segment’s initial asset base as of January 1, 2002. However,
HealthNow did not always comply with the Medicare contracts’ pension segmentation
requirements when updating DMERC Medicare segment assets from January 1, 2002, to
January 1, 2007. HealthNow identified DMERC Medicare segment pension assets of ($74,901);
however, we determined that the DMERC Medicare segment pension assets were $422,674 as of
January 1, 2007. As a result, HealthNow understated the DMERC Medicare segment pension
assets by $497,575.

In addition, HealthNow did not fully comply with Federal requirements in its calculation of
Medicare’s share of the DMERC Medicare segment excess pension assets associated with the
termination of the DMERC Medicare contracts. HealthNow computed Medicare’s share of the
DMERC Medicare segment excess pension liabilities to be $203,556; however, we identified
Medicare’s share of the DMERC Medicare segment excess pension assets to be $122,467 as of
January 1, 2007. Accordingly, HealthNow understated Medicare’s share of the DMERC
Medicare segment excess pension assets, as a result of the termination of the DMERC Medicare
contracts, by $326,023.

RECOMMENDATIONS

We recommend that HealthNow:

   •   increase DMERC Medicare segment pension assets as of January 1, 2007, by $497,575,
       and recognize $422,674 as the DMERC Medicare segment’s pension assets,

   •   increase Medicare’s share of the DMERC Medicare segment excess pension assets by
       $326,023, and

   •   refund to the Federal Government $122,467, which we calculated to be Medicare’s share
       of the DMERC Medicare segment’s excess pension assets as of the termination of the
       DMERC Medicare contracts.

AUDITEE COMMENTS

In written comments on our draft report, HealthNow agreed with our first recommendation but
disagreed with our second and third recommendations. HealthNow disagreed with our
calculations of the DMERC Medicare segment excess pension assets and of Medicare’s share of
the DMERC Medicare segment excess pension assets because, according to HealthNow, those
calculations did not include former DMERC employees. HealthNow proposed that we recognize
$43,333 as the DMERC Medicare segment pension assets as of January 1, 2007, and that
HealthNow would thereby owe $43,277 (99.87 percent of the excess pension assets) to the
Federal Government as HealthNow’s share of the DMERC Medicare segment excess pension
assets as of the termination of the DMERC contract.




                                             ii
HealthNow’s comments, from which we have redacted a listing of 19 former DMERC
employees to protect personally identifiable information, are included as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing HealthNow’s comments, we maintain that our findings and recommendations
remain valid. Eighteen of the 19 former DMERC employees listed in HealthNow’s comments
received a lump sum benefit payment from the plan during 2006 and as a result no longer had a
vested benefit payable from the plan as of January 1, 2007. The liability associated with the
other former DMERC employee was in fact included in our calculations of the DMERC
Medicare segment excess pension assets and of Medicare’s share of the DMERC Medicare
segment excess pension assets.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
              HealthNow NewYork, Inc., and Medicare ......................................................... 1
              Federal Requirements ......................................................................................... 1
              Pension Segmentation ......................................................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
               Objective ............................................................................................................. 2
               Scope ................................................................................................................... 2
               Methodology ....................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ........................................................................... 4

          DURABLE MEDICAL EQUIPMENT REGIONAL CARRIER
            MEDICARE SEGMENT INITIAL ASSET BASE.................................................. 4

          UPDATE OF DURABLE MEDICAL EQUIPMENT REGIONAL CARRIER
            MEDICARE SEGMENT PENSION ASSETS ........................................................ 5
              Federal Requirements ......................................................................................... 5
              Benefit Payments Overstated .............................................................................. 5
              Contributions and Transferred Prepayment Credits Overstated ......................... 6
              Net Transfers Overstated .................................................................................... 6
              Earnings, Net Expenses Understated .................................................................. 6

          DURABLE MEDICAL EQUIPMENT REGIONAL CARRIER
            MEDICARE SEGMENT EXCESS PENSION ASSETS......................................... 6
              Federal Requirements ......................................................................................... 6
              Durable Medical Equipment Regional Carrier
                Medicare Segment Excess Pension Assets as of January 1, 2007 ................. 7
              Medicare’s Share of Durable Medical Equipment Regional Carrier
                 Excess Pension Assets as of January 1, 2007 ............................................... 8

          RECOMMENDATIONS ................................................................................................ 9

          AUDITEE COMMENTS................................................................................................ 9

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................... 10




                                                                     iv
APPENDIXES

 A: STATEMENT OF MARKET VALUE OF PENSION ASSETS
    FOR THE DURABLE MEDICAL EQUIPMENT REGIONAL CARRIER
    MEDICARE SEGMENT AT HEALTHNOW NEW YORK, INC.,
    FOR THE PERIOD JANUARY 1, 2002, TO JANUARY 1, 2007

 B: CALCULATION OF THE DURABLE MEDICAL EQUIPMENT
    REGIONAL CARRIER MEDICARE SEGMENT AGGREGATE
    PERCENTAGE FOR THE DURABLE MEDICAL EQUIPMENT
    REGIONAL CARRIER MEDICARE CONTRACT

 C: CALCULATION OF THE DURABLE MEDICAL EQUIPMENT
    REGIONAL CARRIER MEDICARE SEGMENT AGGREGATE
    PERCENTAGE FOR THE MEDICARE PART B CONTRACT

 D: AUDITEE COMMENTS




                               v
               Glossary of Abbreviations and Acronyms

CAS         Cost Accounting Standards
CMS         Centers for Medicare & Medicaid Services
DMERC       Durable Medical Equipment Regional Carrier
FAR         Federal Acquisition Regulation
HealthNow   HealthNow New York, Inc.
WAV         weighted average value




                                   vi
                                           INTRODUCTION

BACKGROUND

HealthNow New York, Inc., and Medicare

During our audit period (January 1, 2002, to January 1, 2007), HealthNow New York, Inc.
(HealthNow), administered Medicare Part B 1 and Durable Medical Equipment Regional Carrier
(DMERC) operations under cost reimbursement contracts with the Centers for Medicare &
Medicaid Services (CMS). The DMERC contractual relationship was terminated on
June 30, 2006. The effective closing date for the DMERC Medicare segment was
January 1, 2007.

HealthNow began administering DMERC operations in September 2000. On January, 1, 2002,
HealthNow created a new DMERC Medicare segment to separately account for its DMERC
operations. During the audit period, the DMERC Medicare segment performed work on both the
DMERC and Medicare Part B contracts. For the purposes of this report, we will address only the
DMERC Medicare segment assets for the period of January 1, 2002, through January 1, 2007.

HealthNow sponsors a defined benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee’s retirement
benefit as defined by the plan’s terms.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts. Furthermore, in situations such as contract terminations, the Medicare contracts
require contractors to identify excess Medicare pension assets/liabilities, in accordance with CAS
413.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods. CAS 413 also addresses the determination of segment
assets and liabilities in the event of contract terminations, segment closings, or pension plan
terminations.




1
  We reviewed the HealthNow Part B Medicare segment assets in a separate report, Review of Medicare
Contractor’s Pension Segmentation Requirements for the Part B Medicare Segment at HealthNow New York, Inc.,
for the Period April 1, 1995, to January 1, 2007 (A-07-11-00363).


                                                     1
Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413. In claiming costs, contractors must follow cost
reimbursement principles contained in the FAR, CAS, and the Medicare contracts.

Upon termination of its DMERC Medicare contracts, HealthNow identified Medicare’s share of
the Medicare segment excess pension liabilities to be $203,556.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether HealthNow complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •    identifying the DMERC Medicare segment’s initial asset base,

   •    updating the DMERC Medicare segment’s pension assets from January 1, 2002, to
        January 1, 2007, and

   •    determining Medicare’s share of the DMERC Medicare segment excess pension
        assets/liabilities as a result of the termination of the DMERC Medicare contracts.

Scope

We reviewed HealthNow’s identification of its DMERC Medicare segment; computation of the
initial assets allocated to the DMERC Medicare segment; update of DMERC Medicare segment
assets from January 1, 2002, to January 1, 2007; and the DMERC Medicare segment’s closing
calculation as of January 1, 2007.

Achieving our objective did not require us to review HealthNow’s overall internal control
structure. We reviewed controls relating to the identification of the DMERC Medicare segment,
the update of the DMERC Medicare segment’s assets, and the DMERC Medicare segment’s
final assets and liabilities to ensure adherence to the Medicare contracts, CAS 412, and CAS 413.

We performed fieldwork at HealthNow’s office in Buffalo, New York.




                                                 2
Methodology

To accomplish our objective, we took the following steps:

   •   We reviewed the portions of the FAR, CAS, and the Medicare contracts applicable to this
       audit.

   •   We reviewed HealthNow’s development of the DMERC Medicare segment initial asset
       base as of January 1, 2002.

   •   We reviewed the annual actuarial valuation reports prepared by HealthNow’s actuarial
       consulting firm. Prior to our review, HealthNow engaged its actuarial consulting firm to
       analyze and develop its Medicare segment pension asset accounting. This information
       included the pension plan’s assets, liabilities, normal costs, contributions, benefit
       payments, investment earnings, and administrative expenses. We used this information
       to calculate the DMERC Medicare segment assets.

   •   We obtained and reviewed the pension plan documents and Department of Labor/Internal
       Revenue Service Forms 5500 used in calculating the DMERC Medicare segment assets.

   •   We interviewed HealthNow staff responsible for identifying the DMERC Medicare
       segment to determine whether the segment was properly identified in accordance with the
       Medicare contracts.

   •   We reviewed HealthNow’s accounting records to verify the segment identification and
       benefit payments made to the DMERC Medicare segment.

   •   We reviewed the DMERC Medicare segment closing calculation prepared by
       HealthNow’s staff and its actuarial consulting firm.

   •   We provided the CMS Office of the Actuary with the actuarial information necessary for
       it to calculate the DMERC Medicare segment pension assets from January 1, 2002, to
       January 1, 2007, and the DMERC Medicare segment’s excess pension assets/liabilities as
       of January 1, 2007.

   •   We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our review of HealthNow’s pension costs claimed
for DMERC Medicare reimbursement for fiscal years 2000 through 2007 (A-07-11-00367).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.



                                               3
                         FINDINGS AND RECOMMENDATIONS

HealthNow complied with the Medicare contracts’ pension segmentation requirements in
identifying the DMERC Medicare segment’s initial asset base as of January 1, 2002. However,
HealthNow did not always comply with the Medicare contracts’ pension segmentation
requirements when updating DMERC Medicare segment assets from January 1, 2002, to
January 1, 2007. HealthNow identified DMERC Medicare segment pension assets of ($74,901);
however, we determined that the DMERC Medicare segment pension assets were $422,674 as of
January 1, 2007. As a result, HealthNow understated the DMERC Medicare segment pension
assets by $497,575.

Appendix A presents details of the DMERC Medicare segment’s pension assets from
January 1, 2002, to January 1, 2007, as determined during our audit. Table 1 below summarizes
the audit adjustments required to update the DMERC Medicare segment pension assets in
accordance with Federal requirements.

 Table 1: Summary of Audit Adjustments in Updating DMERC Medicare Segment Assets
                                                                 Per
                                                  Per Audit  HealthNow Difference
Update of DMERC Medicare Segment Assets
 Benefit Payments                                 ($947,095) ($1,411,805) $464,710
 Contributions and Transferred Prepayment Credits    993,155    1,041,427  (48,272)
 Transfers                                                 0       17,699  (17,699)
 Earnings, Net Expenses                              373,966      275,130    98,836
Understatement of DMERC Segment Assets                                    $497,575

In addition, CAS 413 requires a segment closing adjustment to be made in order to recognize
Medicare’s share of the DMERC Medicare segment excess pension assets/liabilities as a result of
the termination of the DMERC Medicare contracts. HealthNow did not fully comply with
Federal requirements in its calculation of Medicare’s share of the DMERC Medicare segment
excess pension assets associated with the termination of the DMERC Medicare contracts.
HealthNow computed Medicare’s share of the DMERC Medicare segment excess pension
liabilities to be $203,556; however, we identified excess DMERC Medicare segment pension
assets totaling $122,627 as of January 1, 2007. We determined that Medicare’s share of the
DMERC Medicare segment excess pension assets was $122,467 as of January 1, 2007.
Accordingly, HealthNow understated Medicare’s share of the DMERC Medicare segment excess
pension assets, as a result of the termination of the DMERC Medicare contracts, by $326,023.

DURABLE MEDICAL EQUIPMENT REGIONAL CARRIER
MEDICARE SEGMENT INITIAL ASSET BASE

HealthNow complied with the Medicare contracts’ pension segmentation requirements in
identifying the DMERC Medicare segment’s initial asset base as of January 1, 2002. HealthNow
identified an initial asset base of $2,648 for the DMERC Medicare segment as of
January 1, 2002. We reviewed HealthNow’s initial asset allocation and determined that it is a


                                              4
reasonable representation of its DMERC Medicare segment pension assets as of January 1, 2002.
Therefore, we accepted HealthNow’s allocation of $2,648 as the DMERC Medicare segment
initial asset base as of January 1, 2002.

UPDATE OF DURABLE MEDICAL EQUIPMENT REGIONAL CARRIER
MEDICARE SEGMENT PENSION ASSETS

Federal Requirements

The Medicare contracts identify a Medicare segment as:

       … any organizational component of the contractor, such as a division,
       department, or other similar subdivision, having a significant degree of
       responsibility and accountability for the Medicare contract/agreement, in which:

           1. The majority of the salary dollars is allocated to the Medicare
              agreement/contract; or,

           2. Less than a majority of the salary dollars are charged to the Medicare
              agreement/contract, and these salary dollars represent 40% or more of the
              total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires
that the asset base be adjusted by contributions, permitted unfunded accruals, income, benefit
payments, and expenses. For plan years beginning after March 30, 1995, the CAS requires
investment income and expenses to be allocated among segments based on the ratio of the
segment’s weighted average value (WAV) of assets to Total Company WAV of assets.

In addition, CAS 413.50(c)(8) requires an adjustment to be made for transfers (participants who
enter or leave the segment) if the transfers materially affect the segment’s ratio of pension plan
assets to actuarial accrued liabilities. For plan years beginning after March 30, 1995, the CAS
requires that the amount of assets transferred equal the actuarial accrued liabilities as determined
using the accrued benefit cost method.

Finally, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned to
the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.

Benefit Payments Overstated

HealthNow overstated benefit payments for the DMERC Medicare segment by $464,710
because it did not provide documentation to support the total proposed benefit payments for
2006. HealthNow provided documentation to support only a portion of its 2006 proposed benefit
payment amount. Pursuant to FAR 31.201-2(5)(d), for a cost to be allowable, “[a] contractor is



                                                 5
responsible for accounting for costs appropriately and for maintaining records, including
supporting documentation, adequate to demonstrate that costs claimed have been incurred [and]
are allocable to the contract ….” Because HealthNow did not provide support for the remaining
benefit payments, we considered the unsupported benefit payments to be unallowable.

Further, CAS 413.50(c)(7) requires that the asset base be adjusted by benefit payments
“… attributable to the segment and paid from the pension plan.” We based our calculation of the
DMERC Medicare segment’s benefit payments on actual benefit payments to DMERC Medicare
segment participants as required by the CAS. This overstatement of benefit payments resulted in
an understatement of DMERC Medicare segment pension assets by $464,710.

Contributions and Transferred Prepayment Credits Overstated

HealthNow overstated contributions and transferred prepayment credits by $48,272 for the
DMERC Medicare segment. This overstatement occurred because HealthNow did not correctly
calculate the assignable pension cost upon which the contributions and transferred prepayment
credits were based. As a result, HealthNow overstated the DMERC Medicare segment pension
assets by $48,272.

Net Transfers Overstated

HealthNow overstated net transfers into the DMERC Medicare segment by $17,699. The
overstatement occurred because HealthNow transferred the liability of one participant from the
Medicare segment but did not adjust the Medicare segment assets for this transfer as required by
CAS 413.50(c)(8). This overstatement of the net transfer adjustment resulted in an
overstatement of the DMERC Medicare segment assets by $17,699.

Earnings, Net Expenses Understated

HealthNow understated investment earnings, less administrative expenses, by $98,836 for the
DMERC Medicare segment because it used incorrect benefit payments, contributions and
transferred prepayment credits, and net transfer amounts (all discussed above) to develop the
Medicare segment pension asset base. In our audited update, we allocated earnings, net expenses
based on the applicable CAS requirements.

DURABLE MEDICAL EQUIPMENT REGIONAL CARRIER
MEDICARE SEGMENT EXCESS PENSION ASSETS

Federal Requirements

Medicare Contracts

In the event of a contract termination, the Medicare contracts require contractors to follow the
segment closing provision of the CAS. Furthermore, in situations such as contract terminations, the
Medicare contracts require contractors to identify excess Medicare pension assets/liabilities in
accordance with CAS 413.



                                                6
Cost Accounting Standards

Contract terminations and segment closings are addressed by CAS 413.50(c)(12), which states:

       If a segment is closed, if there is a pension plan termination, or if there is a
       curtailment of benefits, the contractor shall determine the difference between the
       actuarial liability for the segment and the market value of the assets allocated to
       the segment, irrespective of whether or not the pension plan is terminated. The
       difference between the market value of the assets and the actuarial accrued
       liability for the segment represents an adjustment of previously-determined
       pension costs.

       (i) The determination of the actuarial accrued liability shall be made using the
       accrued benefit cost method. The actuarial assumptions employed shall be
       consistent with the current and prior long term assumptions used in the
       measurement of pension costs ….

       (ii) … The market value of the assets shall be reduced by the accumulated value
       of prepayment credits, if any. Conversely, the market value of assets shall be
       increased by the current value of any unfunded actuarial liability separately
       identified and maintained in accordance with 9904.412-50(a)(2).

       (iii) The calculation of the difference between the market value of the assets and
       the actuarial accrued liability shall be made as of the date of the event (e.g.,
       contract termination, plan amendment, plant closure) that caused the closing of
       the segment, pension plan termination, or curtailment of benefits. If such a date is
       not readily determinable, or if its use can result in an inequitable calculation, the
       contracting parties shall agree on an appropriate date.

Durable Medical Equipment Regional Carrier
Medicare Segment Excess Pension Assets as of January 1, 2007

HealthNow identified $203,556 in DMERC Medicare segment excess pension liabilities as of
January 1, 2007. However, we identified excess Medicare pension assets totaling $122,627 as
of January 1, 2007. Therefore, HealthNow understated the DMERC Medicare segment excess
pension assets by $326,183. The understatement occurred because HealthNow did not fully
comply with Federal regulations in its calculation of the Medicare segment’s excess pension
assets. Specifically, HealthNow understated the excess pension assets because it (a) understated
the DMERC Medicare segment’s pension assets as of January 1, 2007, and (b) incorrectly
identified the final participants and their respective liabilities as of January 1, 2007. As part of
our review, we used the development of excess assets to identify Medicare’s share of the
DMERC Medicare segment’s excess pension assets.




                                                 7
Medicare’s Share of Durable Medical Equipment Regional Carrier
Excess Pension Assets as of January 1, 2007

Federal Requirements

The methodology for determining the Federal Government’s share of excess pension liabilities is
addressed by CAS 413.50(c)(12)(vi), which states:

       The Government’s share of the adjustment amount determined for a segment shall
       be the product of the adjustment amount and a fraction. The adjustment amount
       shall be reduced for any excise tax imposed upon assets withdrawn from the
       funding agency of a qualified pension plan. The numerator of such fraction shall
       be the sum of the pension plan costs allocated to all contracts and subcontracts
       (including Foreign Military Sales) subject to this Standard during a period of
       years representative of the Government’s participation in the pension plan. The
       denominator of such fraction shall be the total pension costs assigned to cost
       accounting periods during those same years. This amount shall represent an
       adjustment of contract prices or cost allowance as appropriate. The adjustment
       may be recognized by modifying a single contract, several but not all contracts, or
       all contracts, or by use of any other suitable technique. [Emphasis added.]

Medicare’s Share of the Durable Medical Equipment Regional Carrier
Medicare Segment Excess Pension Assets Understated

HealthNow did not comply with the Medicare contracts in determining Medicare’s share of the
DMERC Medicare segment excess pension assets associated with the termination of the
DMERC Medicare contracts as of January 1, 2007. HealthNow calculated $203,556 as
Medicare’s share of the DMERC Medicare segment excess pension liabilities as of
January 1, 2007; however, we identified excess DMERC Medicare segment pension assets
totaling $122,627 as of that date. We determined that Medicare’s share of the DMERC
Medicare segment excess pension assets was $122,467 as of January 1, 2007. The
understatement occurred primarily because HealthNow (1) understated the DMERC Medicare
segment’s excess pension assets (as discussed above), and (2) did not compute the aggregate
Medicare percentage in accordance with the CAS. As a result, HealthNow understated
Medicare’s share of the DMERC Medicare segment excess pension assets by $326,023.

In accordance with CAS 413.50(c)(12)(vi), we calculated the aggregate Medicare percentage
using the Medicare segment pension costs developed during the current pension costs claimed
audit (A-07-11-00367). Appendix B shows our calculation of the DMERC Medicare segment’s
aggregate Medicare percentage for the Medicare pension costs that relate to the DMERC
contract. Appendix C shows our calculation of the DMERC Medicare segment’s aggregate
percentage for the Medicare pension costs that relate to the Medicare Part B contract. Table 2 on
the following page shows our calculations of Medicare’s share of the DMERC Medicare
segment excess pension assets.




                                                8
  Table 2: Medicare’s Share of DMERC Medicare Segment Excess Pension Assets
                                                                    Excess
                    Excess Medicare                           Assets/(Liabilities)
                        Segment           Aggregate Medicare   Attributable to
                 Assets/(Liabilities) (A)   Percentage (B)    Medicare (A x B)
Per Audit
 DMERC                         $122,627               98.64%            $120,959
 Part B                        $122,627                 1.23%             $1,508
Total Per Audit                                                         $122,467

Per HealthNow                 (203,556)           100.00%                     (203,556)
Understatement of Medicare’s Share of Excess DMERC Assets                     $326,023

RECOMMENDATIONS

We recommend that HealthNow:

   •   increase DMERC Medicare segment pension assets as of January 1, 2007, by $497,575,
       and recognize $422,674 as the DMERC Medicare segment’s pension assets,

   •   increase Medicare’s share of the DMERC Medicare segment excess pension assets by
       $326,023, and

   •   refund to the Federal Government $122,467, which we calculated to be Medicare’s share
       of the DMERC Medicare segment’s excess pension assets as of the termination of the
       DMERC Medicare contracts.

AUDITEE COMMENTS

In written comments on our draft report, HealthNow agreed with our first recommendation but
disagreed with our second and third recommendations. HealthNow disagreed with our
calculations of the DMERC Medicare segment excess pension assets and of Medicare’s share of
the DMERC Medicare segment excess pension assets because, according to HealthNow, those
calculations did not include former DMERC employees. HealthNow further stated that this
group of former DMERC employees still had vested benefits payable from the plan as of
January 1, 2007, but that our calculations did not include any liability for this group.

HealthNow also proposed that, as a result of the inclusion of this group of former DMERC
employees, we recognize $43,333 as the DMERC Medicare segment pension assets as of
January 1, 2007, and that HealthNow would thereby owe $43,277 (99.87 percent of the excess
pension assets) to the Federal Government as HealthNow’s share of the DMERC Medicare
segment excess pension assets as of the termination of the DMERC contract. HealthNow added
that if we agreed with these adjustments, HealthNow would net the $43,277 with other amounts
due to/from the Federal Government during global settlement of all outstanding audits.



                                              9
HealthNow provided a listing of 19 former DMERC employees as part of its comments.
Because this listing contained personally identifiable information, we have redacted it from
HealthNow’s comments, which are otherwise included as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing HealthNow’s comments, we maintain that our findings and recommendations
remain valid. Regarding the DMERC employee listing provided by HealthNow, we determined
that 18 of the 19 former employees received a lump sum benefit payment from the plan during
2006 and as a result no longer had a vested benefit payable from the plan as of January 1, 2007.
As for the other former DMERC employee, our calculations of the DMERC Medicare segment
excess pension assets, and of Medicare’s share of the DMERC Medicare segment excess pension
assets, already included and thus correctly reflected this employee’s liability as of
January 1, 2007.

Accordingly, we maintain that HealthNow should increase Medicare’s share of the DMERC
Medicare segment excess pension assets by $326,023, and refund to the Federal Government
$122,467, which we calculated to be Medicare’s share of the DMERC Medicare segment’s
excess pension assets as of the termination of the DMERC Medicare contracts.




                                               10
APPENDIXES
                                                                                              Page 1 of 2

              APPENDIX A: STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR

          THE DURABLE MEDICAL EQUIPMENT REGIONAL CARRIER MEDICARE SEGMENT 

       AT HEALTHNOW NEW YORK, INC., FOR THE PERIOD JANUARY 1, 2002, TO JANUARY 1, 2007


                                                                                              DMERC
                                                                           Part B Medicare    Medicare
           Description                Total Company     “Other” Segment        Segment        Segment
                                                                                                 1/
Assets January 1, 2002           2/      $60,056,771        $52,158,608         $7,895,515          $2,648

Transferred Prepayment Credits   3/                0           (732,344)           489,141         243,203
Contributions                    4/        7,930,000          7,930,000                  0               0
Earnings, Net Expenses           5/       (6,179,908)        (5,286,432)          (867,604)        (25,872)
Benefit Payments                 6/       (2,663,303)        (2,382,950)          (280,353)              0
Transfers                        7/                0                541               (541)              0

Assets January 1, 2003                    59,143,560         51,687,423          7,236,158         219,979

Transferred Prepayment Credits                     0           (675,188)           458,820         216,368
Contributions                              6,850,000          6,850,000                  0               0
Earnings, Net Expenses                    14,513,020         12,544,601          1,858,704         109,715
Benefit Payments                          (2,847,892)        (2,242,407)          (605,485)              0
Transfers                                          0                  0                  0               0

Assets January 1, 2004                    77,658,688         68,164,429          8,948,197         546,062

Transferred Prepayment Credits                     0           (814,039)           596,090         217,949
Contributions                              6,750,000          6,750,000                  0               0
Earnings, Net Expenses                     8,787,207          7,616,997          1,082,285          87,925
Benefit Payments                          (2,606,684)        (2,326,873)          (279,811)              0
Transfers                                          0                  0                  0               0

Assets January 1, 2005                    90,589,211         79,390,514         10,346,761         851,936

Transferred Prepayment Credits                     0           (727,833)           520,848         206,985
Contributions                              6,600,000          6,600,000                  0               0
Earnings, Net Expenses                     7,383,951          6,410,744            885,236          87,971
Benefit Payments                          (3,415,381)        (2,991,545)          (423,836)              0
Transfers                                          0            (17,556)              (143)         17,699

Assets January 1, 2006                   101,157,781         88,664,324         11,328,866       1,164,591

Transferred Prepayment Credits                     0           (579,773)           471,123         108,650
Contributions                                      0                  0                  0               0
Earnings, Net Expenses                    13,099,673         11,395,306          1,590,140         114,227
Benefit Payments                         (18,896,767)       (16,614,494)        (1,335,178)       (947,095)
Transfers                                          0             17,699                  0         (17,699)

Assets January 1, 2007                   $95,360,687        $82,883,062        $12,054,951        $422,674
Per HealthNow                    8/      $95,360,687        $84,184,414        $11,251,174        ($74,901)
Asset Variance                   9/               $0        ($1,301,352)         $803,777         $497,575
                                                                                                                         Page 2 of 2


ENDNOTES

 1/ Durable Medical Equipment Regional Carrier

 2/ We agreed with HealthNow New York, Inc.’s (HealthNow) determination of the DMERC Medicare segment’s initial assets. The
    amounts shown for the “Other” segment represent the difference between the Total Company, the Part B Medicare segment, and
    the DMERC Medicare segment. All pension assets are shown at market value.

 3/ Prepayment credits represent funds available to satisfy future funding requirements, and are applied to future funding requirements
    before current year contributions in order to avoid incurring unallowable interest costs. Prepayment credits are transferred to the
    Medicare segment(s) as needed to cover funding requirements.

 4/ We obtained Total Company contribution amounts from the Department of Labor/Internal Revenue Service Forms 5500. We
    allocated Total Company contributions to the Medicare segment(s) based on the ratio of the Medicare segment(s) funding target
    divided by the Total Company funding target. Contributions in excess of the funding targets were treated as prepayment credits and
    accounted for in the “Other” segment until needed to fund pension costs in the future.

 5/ We obtained net investment earnings from documents prepared by HealthNow’s actuarial consulting firm. We allocated net
    investment earnings based on the ratio of the segment’s weighted average value (WAV) of assets to Total Company WAV of assets
    as required by the Cost Accounting Standards (CAS).

 6/ We based the DMERC Medicare segment’s benefit payments on actual payments to DMERC Medicare segment participants. We
    obtained the benefit payments from documents provided by HealthNow.

 7/ We identified participant transfers between segments by comparing valuation data files provided by HealthNow. Asset transfers
    were equal to the actuarial liability determined under the accrued benefit cost method in accordance with the CAS.

 8/ We obtained total asset amounts as of January 1, 2007, from documents prepared by HealthNow’s actuarial consulting firm.

 9/ The asset variance represents the difference between our calculation of Medicare segment(s) pension assets and HealthNow’s
    calculation of the Medicare segment(s) pension assets.
 APPENDIX B: CALCULATION OF DURABLE MEDICAL EQUIPMENT REGIONAL 

CARRIER MEDICARE SEGMENT AGGREGATE PERCENTAGE FOR THE DURABLE 

     MEDICAL EQUIPMENT REGIONAL CARRIER MEDICARE CONTRACT


                      Medicare Segment
                       Pension Costs              Total Medicare
                        Charged to               Segment Pension           Medicare Aggregate
    Fiscal Year          Medicare                     Costs                   Percentage
         1/                (A) 2/                       (B)                    (A/B) 3/
       2002                     237,974                     243,203
       2003                     213,425                     216,368
       2004                     214,985                     217,949
       2005                     204,625                     206,985
       2006                     108,650                     108,650

       Total                     $979,659                  $993,155                      98.64%


FOOTNOTES

 1/ The aggregate percentage was based on the audited pension costs determined during our current
    review of HealthNow New York, Inc.’s Durable Medical Equipment Regional Carrier (DMERC)
    Medicare segment (A-07-11-00367).

 2/ This column identifies the allowable DMERC Medicare segment pension costs that relate to the
    DMERC contract.

 3/ We calculated the aggregate Medicare percentage by dividing the DMERC Medicare segment
    pension costs charged to Medicare by the total DMERC Medicare segment pension costs
    pursuant to Cost Accounting Standard 413.
 APPENDIX C: CALCULATION OF DURABLE MEDICAL EQUIPMENT REGIONAL 

CARRIER MEDICARE SEGMENT AGGREGATE PERCENTAGE FOR THE MEDICARE 

                        PART B CONTRACT


                      Medicare Segment
                       Pension Costs              Total Medicare
                        Charged to               Segment Pension           Medicare Aggregate
    Fiscal Year          Medicare                     Costs                   Percentage
         1/                (A) 2/                       (B)                    (A/B) 3/
       2002                       3,989                     243,203
       2003                       2,943                     216,368
       2004                       2,964                     217,949
       2005                       2,298                     206,985
       2006                         -                       108,650

       Total                      $12,194                  $993,155                       1.23%


FOOTNOTES

 1/ The aggregate percentage was based on the audited pension costs determined during our current
    review of HealthNow New York, Inc.’s Durable Medical Equipment Regional Carrier (DMERC)
    Medicare segment (A-07-11-00367).

 2/ This column identifies the allowable DMERC Medicare segment pension costs that relate to the
    Part B contract.

 3/ We calculated the aggregate Medicare percentage by dividing the DMERC Medicare segment
    pension costs charged to Medicare by the total DMERC Medicare segment pension costs
    pursuant to Cost Accounting Standard 413.
                                                                                                             Page 1 on


                                   APPENDIX D: AUDITEE COMMENTS



257 W..t Genesee Street · 8uffalo. New York 14202-2657




                                                                                            January 30, 2012

        Mr. Patrick J. Cogley 

        Regional Inspector General, Office of Audit Services 

        Region VII 

        601 East lih Street 

        Room 0429 

        Kansas City, Missouri 64106 


        Re: 	 Report Number: A-01-11-OO366

        Dear Mr. Cogley:

       This letter is In response to the U.S. Department of Health & Human Services, OffICe of Inspector 

       General, Office of Audit Services' draft report entitled "REVIEW OF MEDICARE CONTRACTOR'S 

       PENSION SEGMENT AT HEAlTHNOW NEW YORK INC FOR THE DURABLE MEDICAL EQUIPMENT 

       REGIONAL CARRIER SEGMENT AT HEALTHNOW NEW YORK INC, A TERMINATED MEDICARE 

       CONTRACT, FOR THE PERIOD JANUARY 1, 2002, TO JANUARY 1, 2001." HealthNow New York Inc. 

       (HealthNow) has reviewed the draft report in conjunction with our actuaries at Hooker and 

       Holcombe, Inc. Following are comments regarding the specific findings. 


             • 	 Increase DMERC Medicare segment pension assets as of January 1, 2007 by $497,57S. This
                 brings the DMERC Medicare segment's pension asset value to $422,674. We agree with this
                 amount and will make the corresponding adjustments.

       We do not agree with the other two recommendations in this report:

             • 	 That HealthNow should increase the DMERC Medicare segment excess pension assets by
                 $326,023, or
             • 	 That HealthNow should refund to the Federal Government $122,467, which the report
                 indicates Is Medicare's share of the DMERC Medicare segment's excess pension assets as of
                 the termination of the DMERC contract.

       Our disalreement is with the liabilities used in the above two calculations. The auditors had 

       provided per person liabilities used in its development, and we do not disagree with those 

       calculations. However, there is a group of former DMERC employees who, as of January 1, 2007 still 

       had vested benefits payable from the plan but for whom no liability was Included in the 

       reconciliation. The liability for this group totals $19,294 as of January 1, 2007. 


       A listing of the terminated vested employees, with each person's liability, is attached.

       As a result of the inclusion of this group of former employees, we propose the following:
           • 	 That HealthNow should increase the DMERC Medicare segment excess penSion assets by
               $246,729. This brings the DMERC Segment's excess assets upon termination to $43,333,
               and
                                                                                                 Page 2   on




   • 	 That HealthNow owes $43.2n (99.87% of the excess pension assets) to the Federal
       Government as its share of the DMERC Medicare segment's excess pension assets as of the
       termination of the DMERC contract.

If you agree with these adjustments. we will net the $43,2n with other amounts due to/from the
Federal Government. We understand there will be a global settlement of all outstanding audits.

HealthNow would like to thank the audit team for their professionalism and recognition of the
ongoing operation during the audit. I am also grateful to Jenenne Tambke for the extension to
respond to this draft report.

If you have any questions, please contact me at 716.887.6922.




~,S~DI~_' &"t.. .
     rly,

            l- r-e ) O ~w-Y(
  zan 	 e M. Gannon
                                   o_ "
Mei~v:ervices, llC
HealthNow New York Inc.

CC: 	 carmen L Snell, Esq. 

      Christopher leardinj 

      catherine M. Campbell 

                                                                                                    Page 3 of3




 HealthNow NY, Inc. 

Cost Accountfnl Stancfards 

AttachmeIIt to Draft Repett Mt7·11~ 


The following are on H&H's 1/1/07 data as DMERC TVs. They are not included in OIG's liability.

!"IaII!e                                  Status          Date of lirth Date of Hire      location UHl~
omc. of Inspector Gemital NOte - The delefed text has been redacted because it is personaUy identifiable
information.
